Archived: FY 2004 Performance and Accountability Report (PAR)
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
ED PERFORMANCE & ACCOUNTABILITY
FY 2004 Performance and Accountability Report (PAR)
including the FY 2004 Program Performance Report
Full Document  PDF (10MB)
Front Matter  PDF (603K) | Word (360K)
Management's Discussion and Analysis  PDF (1.7MB) | Word (3.5MB)
Performance Details
Goal 1  PDF (727K) | Word (332K)
Goal 2  PDF (969K) | Word (543K)
Goal 3  PDF (839K) | Word (253K)
Goal 4  PDF (589K) | Word (145K)
Goal 5  PDF (811K) | Word (400K)
Goal 6  PDF (698K) | Word (89K)
Financial Details
Principal Financial Statements  PDF (421K) | Word (494K)
Notes to Principal Financial Statements  PDF (142K) | Word (694K)
Required Supplementary Stewardship Information  PDF (269K) | Word (339K)
Required Supplementary Information  PDF (234K) | Word (356K)
Report of the Independent Auditors  PDF (2.1MB) | Word (7.1MB)
Other Statutorily Required Reports  PDF (224K) | Word (256K)
Appendixes
Appendix A: Performance Data Tables  PDF (502K) | Word (880K)
Appendix B: Performance Data Quality and Timeliness  PDF (343K) | Word (92K)
Appendix C: Sample Program Performance Report  PDF (339K) | Word (79K)
Appendix D: Improper Payments Act of 2002  PDF (243K) | Word (111K)
Appendix E: Management Challenges  PDF (1.4MB) | Word (3.9MB)
Glossary of Acronyms  PDF (462K) | Word (138K)
Program Performance Report
Comments and suggestions on documents may be sent to sas@ed.gov.
Printable view
Share this page
Last Modified: 07/24/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
Budget
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov